No. 19-479

3fn®Ije

Supreme Court of tlje fflntteb States

CAROL M. RAM, PRO SE,
Petitioner,
v.
JOHN B. PEYTON JR.,
Respondent.

On Petition For Writ Of Certiorari
To The Fifth Circuit Court Of Appeals

PETITION FOR REHEARING

Carol M. Kam, Pro Se
9039 Santa Clara Dr.
Dallas, Texas 75218
214-801-4901
carolmkam@gmail.com

RECEIVED
NOV 2 7 2019

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES...................................

11

GROUNDS FOR REHEARING.............................

1

POWERS OF AN ASSOCIATE JUDGE...............

4

ASSOCIATE JUDGE ADJUDICATION...... ........

6

JUDICIAL ACTION ON ASSOCIATE JUDGES
PROPOSED ORDERS.... ...................................

7

EFFECTIVE DATE OF AN APPEALABLE OR­
DER

7

SIMPLE SOLUTION.......................

8

CONCLUSION................................

8

CERTIFICATE OF PETITIONER

10

APPENDIX
Shubert, Judgment Declaring Heirship, PR-1804004-3 (Dallas Probate Court #3)................. App. 1
Shubert, Order Granting Independent Admin­
istration, PR-18-04004-3 (Dallas Probate
Court #3)............................................................ App. 4
Shubert, Order to Pay Attorney Ad Litem, PR18-04004-3 (Dallas Probate Court #3)..... ....... App. 8
Dallas County Job Description for Probate
Court #3 (April 2019)
App. 10

!

1

■s
i

11

TABLE OF AUTHORITIES
Page
Texas Government Code 25.00231

1

Texas Government Code 54A.117.

2

Texas Government Code 54A.207.

6

Texas Government Code 54A.209.

4,5

Texas Government Code 54A.214.

5,7

Texas Government Code 54A.215.

5,7

Texas Government Code 54A.216.

4

Texas Government Code 54A.217.

5,7

Case Law [Attached]
Dallas Probate Case PR-18-04004-3

2

1
Pursuant to Rule 44.2 Carol M. Kam, Pro Se, re­
spectfully petitions for rehearing of the Court’s deny­
ing Certiorari in this Case.

GROUNDS FOR REHEARING
The original certiorari petition in this case pre­
sented the question of whether or not the Rooker Feld­
man Doctrine can apply to a Case where the Proposed
unsigned State Order is Void and not valid.
Because of Historical incompetence and Fraud in
Statutory Probate Courts, the Texas State Legislature
has created two special Features unique to Statutory
Probate Courts that do not apply to District Courts.
The State of Texas requires that the County for
each Statutory Probate Court provide a Liability In­
surance Policy of a minimum of $500,000 for each
Judge. This is not required for a typical District Court
Judge. [Tex Gov Code 25.00231] This is prompted by
historical incompetence and Fraud within State Pro­
bate Courts . . . as evidenced in my Case.
The State of Texas requires that ANY AND ALL
proposed Orders by an Associate Judge operating in a
Statutory Probate Court be signed off by the Court in
Order to establish an Effective Date for the Order in
order to make it a legal instrument and eligible for an
Appeal. The ONLY exception to this is where both par­
ties agree in writing to the Order which certainly does
not apply in my case. This is a unique feature required

2

by the State to minimize the historical Graft and In­
competence in the Probate Court System.
A sign off is an extremely simple procedure that
involves engagement of two individuals in a Case and
thus hopefully reduces the potential risk of Fraud and
Incompetence.
An Associate Judge in a State Civil Court does not
require sign off by the Judge and can become the ruling
of the Court [Tex Gov Code 54A.117] This however,
does not apply to a Statutory Probate Court. A sign off
is required in a Texas Probate Court.
Attached is a copy of three Orders by an Associate
Judge that have been signed by the Judge of Record for
Dallas Probate Court #3. [PR-18-04004-3] This is per
the law and standard practice for all cases legitimately
handled by the Court.
When the Court has to cover for the gross miscon­
duct and or illegal activity of a Dallas Probate Attorney
who needs a “favor” from the Court, the Dallas Probate
Court can easily crush an individual who exposes this
misconduct by issuing an Order that essentially places
a person in perpetual Limbo with an Order that is not
Appealable, as in my Case.
Without an Appealable Order, my sole source of re­
lief was to file a Bill of Review back through the same
Court. As previously reported, the Judge confiscated
my Counsel’s entire Notebook from the Courtroom
with the implication that an additional hearing would
be reset to rediscuss the issues, as there were many.

3

Once the Evidence was confiscated and not logged as
exhibits, the Judge made a ruling and failed to notify
my Counsel as required by State Law. The intent of
this was to allow the window for Appeal to close. The
Defendant’s Counsel knew this plan, felt some sense of
integrity and informed my counsel one day prior to the
expiration of time for the Appeal. My Attorney did get
the Appeal in on time.
The Order from the Probate Court for the Bill of
Review was simply a blanket denial with no explana­
tion. My attorney repeatedly requested Finding of Fact
per state Law with no response from the Court. All of
this was an intentional effort to subvert my effort for
Appeal. With no Findings of Fact and Exhibits, my Ap­
peal was D.O.A. at the Appeal Court. We did inform the
Appeal Court of all the misconduct at the Lower Court
and they failed to sanction the Judge for misconduct
and failed to issue a Writ of Mandamus for the Probate
Court to sign off on the Associate Judges ruling as re­
quired by Law.
Despite my request, the Appeal Court for the Bill
of Review failed to address the absence of the “Effec­
tive Date” for the Order.

4
POWERS OF AN ASSOCIATE JUDGE
Tex Gov Code 54A.209
54A.209 POWERS OF AN ASSOCIATE JUDGE
[A] except as limited by an order of Referral,
an associate judge may:
11] recommend the rulings, orders or judg­
ment to be made in a case.
16] without prejudice to the right to a de novo
hearing under Section 54A.216 render and
sign:
A] a final order agreed to in writing as to
both form and substance by all parties.
B] a final default order
C] a temporary order
D] A final order in cases in which a party files
an unrevoked waiver made in accordance with
Rule 119, Texas Rules of Civil Procedure, that
waives the notice to the party of the final hear­
ing or waives the parties appearance in the fi­
nal hearing.
17] Sign a final order that includes a waiver
of the right to a de novo hearing in accordance
with Section 54A.216.
While there is a question that Peyton had the right
to address a waiver of a trial de novo in light of Miller’s
granting a post trial rehearing when requested, there
is a claim that 54A.209.17 applies to my case.

5
Assuming it does, then the following is a require­
ment by the referring court.
54A.214 [b] Except as provided by Section 54A.209
[c], if a request for a de novo hearing before the referring
court is not timely filed or the right to a de novo
hearing before the referring court is waived, the
decisions and recommendations of the associate
judge or the proposed order or judgement of the
associate judge becomes the order or judgement
of the referring court at the time the judge of the
referring court signs the proposed order or judg­
ment.
For reference 54A.209 [c] states: An order described
by Subsection [a][16] that is rendered and signed by
an associate judge constitutes an order of the referring
court. The judge of the referring court shall sign
the order not later than the 30th day after the
date the associate judge signs the order.
This Section 54A.209 describes ALL the powers an
Associate Probate Judge Has. Note that the Associ­
ate Judge does not have the power to set the Ef­
fective Date of the Order. That is solely reserved to
the referring Court by multiple statutes 54A.214 [b],
54A.215, and 54A.217. The Probate Court and Ap­
peal Court for the Bill of Review never addressed
this issue.

6
ASSOCIATE JUDGE/ADJUDICATION
Tex Gov Code 54A.207
Per Texas Statute, an Associate Probate Judge
does have the right to hold a trial and create an Order
that can be taken to an Appeal Court. With proper au­
thorization [which remains unresolved in this Case]
from the Judge of Record or the State Probate Judge,
an Associate Judge can hold a final trial that can cre­
ate testimony and documents suitable for an Appeal.
Sec. 54A.207 CASES THAT MAY BE REFERRED
[a] Except as provided by this Section, a judge of a court
may refer to an associate judge any aspect of a suit over
which the Probate Court has jurisdiction.
[b] ... A trial on the merits is any final adjudica­
tion from which an appeal may be taken to a court of
appeals.
Note that this statement clearly states “Adjudica­
tion” which constitutes the hearings. An “Adjudication
is not an Order, and only an Order is Appealable.” This statute simply means that the trial can be
final and the “source” of an Order. The above procedure
is “book-ended” by two critical events.
First is that the Associate Judge must obtain an
Order of Referral from the Judge of Record or the State
Probate Judge prior to the hearing and the date of
any Order is defined as the date the Referring

7

Court signs the Order per State Laws Tex Gov
Code 54A.214 [b], 54A.215, and 54A.217.

JUDICIAL ACTION ON ASSOCIATE
JUDGES PROPOSED ORDERS
Tex Gov Code 54A.215
54A.215 [b] “The judge of the referring court shall
sign a proposed order or judgement the court adopts
as provided by subsection [a] [1] not later than the
30th day after the date the associate judge signed
the order or judgement.”

EFFECTIVE DATE OF APPEALABLE ORDER
Per Texas Government Code 54A.217 APPEL­
LATE REVIEW [b] “Except as provided by subsection
[c], the date the judge of a referring court signs
an order or judgement is the controlling date for
the purposes of appeal to or request for other re­
lief from a court of appeals or a supreme court”
[“c” refers to 54A.209.16 where all parties have
agreed to the associate judge’s ruling in writing, which
is certainly not applicable with my case].

8
SIMPLE SOLUTION
There is an extremely simple solution for the pre­
dicament that I am in created by John B Peyton’s gross
ineptitude and incompetence [Which has been con­
firmed by the State of Texas as they have deemed him
to be unfit to be a Judge and by Dallas County as they
have fired him.] John B Peyton can go back to Dallas
Probate Court #3 and have it follow the Law and sign
off on the proposed Order in order to determine the
“Effective Date” and allow my Appeal on the merits
of the Case to proceed thru the system.
From the examples provided to this Court Dallas
Probate Court #3 does know and follow the law by sign­
ing off on Associate Judge’s Rulings. We can reasonably
presume that the Dallas Probate Court #3 has deemed
Mr Peyton’s Work as improper, unprofessional and/or
not worthy of a sign-off.
This Court should demand that John B Peyton Jr.
simply provided a signed Order or an explanation from
Dallas Probate Court #3 on why a sign off will not be
provided for his defense. If he does, this case automat­
ically goes away with no further cost to any party and
the U.S. Supreme Court.

CONCLUSION
John B Peyton has not provided this Court with
an Order signed by the Probate Court in accordance
with State Law that clearly establishes the “Effective

9
Date” of the Order which is required for an Appeal.
John B Peyton has not provided a reason that he has
not provided the signature to make the proposed State
Order a valid Legal Instrument.
Both Orders by the Associate Judge Peyton* re­
main unsigned by the Court 6 years after Peyton sub­
mitted the proposed orders to the Court for signature.
There is no provision [outside of party agreement]
in ANY Statutory or Case law that permits any excep­
tion to the Judge of Record for a Statutory probate
Court requirement to sign off and establish the “Effec­
tive Date” of the Order in order to make it a legal in­
strument suitable for Appeal. I have presented the
unsigned orders, all the applicable Case law, and ex­
amples of proper procedure by the Court. John B Pey­
ton has provided no documentation to prove the
validity of the proposed unsigned Orders.
WITHOUT A VALID STATE ORDER, THE ROOKER
FELDMAN DOCTRINE DOES NOT AND CAN NOT
BE RELIED ON AS A DEFENSE.
Do not forget that John B Peyton was removed as
a Judge almost two years ago for misconduct by the
Texas State Commission on Judicial Conduct as they
deemed him to be unfit.____________________________
Respectfully submitted,
Carol M. Kam, Pro Se
9039 Santa Clara Dr.
Dallas, Texas 75218
214-801-4901
carolmkam@gmail.com

10
CERTIFICATE OF PETITIONER
I hereby certify that this petition for rehearing is
presented in good faith and not for delay, and that this
is restricted to the grounds specified in Supreme Court
Rule 44.2.

Carol M. Kam

App. 1
No. PR-18-04004-3
IN THE ESTATE OF

GLENNA GENTHNER
SHUBERT,
DECEASED

§ IN THE PROBATE
§ COURT
§
§

NO. 3

§ DALLAS COUNTY,
§ TEXAS

JUDGMENT DECLARING HEIRSHIP
On this day came on to be heard the sworn Appli­
cation to Determine Heirship of the Estate of Glenna
Genthner Shubert, Deceased, wherein Matthew Glenn
Shubert is the Applicant and is heir to Decedent’s Es­
tate, and Decedent’s living heirs whose names and/or
whereabouts are unknown are Defendants; and it ap­
pears to the Court, and the Court so finds that all par­
ties interested in the Estate of Decedent have filed
written waivers of service of citation, have appeared
and answered herein, or have been duly and legally
served with citation as required by law; that the Court
appointed an Attorney Ad Litem to appear and answer
and to represent Defendants and such Attorney Ad Li­
tem did so appear and filed an answer for Defendants;
that this Court has jurisdiction of the subject matter
and all persons and parties; that the evidence pre­
sented and admitted fully and satisfactorily proves
each and every issue presented to the Court; that De­
cedent died intestate; and that the heirship of Dece­
dent has been fully and satisfactorily proved and the
interest and shares of each of the heirs therein.

App. 2
The Court finds and it is ORDERED and DE­
CREED by this Court that the names and places of
residence of the heirs of Decedent and their respective
shares and interests in the real and personal property
of Decedent are as follows:
a.

Name: Michael B. Shubert
Relationship: Child
Share of Real Property: 1/2
Share of Personal Property: 1/2

b.

Name: Matthew Glenn Shubert
Relationship: Child
Share of Real Property: 1/2
Share of Personal Property: 1/2

SIGNED on the 8th day of July. 2019.
/s/ [Illegible]
JUDGE PRESIDING
ASSOCIATE JUDGE,
IN AND FOR THE
PROBATE COURTS,
DALLAS COUNTY,
TEXAS

App. 3
APPROVED AS TO FORM:
By: /s/ Byron L. Woolley_________
Byron L. Woolley
State Bar No.: 21986500
6440 N. Central Expwy.
Suite 505
Dallas, Texas 75206
Telephone: (214) 871-5082
Facsimile: (214) 871-5090
E-mail: woollev@woolleywilson.com
Attorney for Matthew Glenn Shubert
/s/ Margaret Jones-Johnson
MARGARET JONES-JOHNSON
PRESIDING JUDGE
DALLAS COUNTY,
PROBATE COURT #3

App. 4

No. PR-18-04004-3
IN THE ESTATE OF
§ IN THE PROBATE
GLENNA GENTHNER § COURT
| NO. 3
SHUBERT,
DECEASED

§ DALLAS COUNTY,
§ TEXAS

ORDER GRANTING INDEPENDENT
ADMINISTRATION AND AUTHORIZING
LETTERS OF ADMINISTRATION
PURSUANT TO SECTION 401.003 OF
THE TEXAS ESTATES CODE
On this day came on to be heard the Application
filed herein by Matthew Glenn Shubert on December
21, 2018, for an independent administration and for
the issuance of Letters of Administration to Matthew
Glenn Shubert in the Estate of Glenna Genthner Shu­
bert pursuant to Section 401.003 of the Texas Estates
Code.
The Court, after having heard and considered the
evidence, finds that legal notices of the filing of said
Application have been issued and posted in the man­
ner and for the length of time required by law, and no
one came to contest same; that Decedent died at Dal­
las, Dallas County, Texas on September 28, 2018; that
this Court has jurisdiction and venue over the estate
because Decedent was domiciled in Texas and had a
fixed place of residence in Dallas County, Texas at the
time of her death; that it has been determined through

App. 5
a proceeding to declare heirship that the heirs identi­
fied in the above-referenced Application constitute all
of the Decedent’s heirs and are all of the distributees
of Decedent’s estate, that the distributees have agreed
on the advisability of having an independent admin­
istration and have designated Matthew Glenn Shubert
as independent Administrator of Decedent’s estate;
that four years have not elapsed since the death of De­
cedent or prior to the said Application; that a necessity
exists for the administration; and that Decedent was
divorced from Kenneth O. Shubert on April 17,1985.

IT IS THEREFORE ORDERED AND DECREED
by the Court that an independent administration of
the Estate of Glenna Genthner Shubert is granted and
that Matthew Glenn Shubert be, and is hereby ap­
pointed Independent Administrator of said Estate
without bond.
IT IS FURTHER ORDERED by the Court that
Letters of Administration in the Estate of Glenna
Genthner Shubert, Deceased, be and the same are
hereby granted, that the Clerk shall issue said Letters
of Administration to Matthew Glenn Shubert, as Inde­
pendent Administrator, when qualified according to
law, and that no other action shall be had in this Court
other than the return of an Inventory, Appraisement
and List of Claims as required by law, or an affidavit
in lieu of the Inventory, Appraisement and List of
Claims.

App. 6
Matthew Glenn Shubert may sell the property of
Decedent upon the consent of the distributees who are
to receive any interest in the property, having been
consented to same. No interested person has filed an
application for the appointment of appraisers, and ap­
pointment of appraisers by the Court is waived.
SIGNED this 8th day of July. 2019.
/s/ [Illegible]
JUDGE PRESIDING
NOTE: If Personal Repre­
sentative in this Estate
intends on filing an Affi­
davit in Lieu of Inven­
tory, Appraisement and
List of Claims, this Court
will REQUIRE such affi­
davit to be filed within 90
days from qualification.

ASSOCIATE JUDGE,
IN AND FOR THE
PROBATE COURTS,
DALLAS COUNTY,
TEXAS

/s/ Margaret Jones-Johnson
MARGARET JONES-JOHNSON
PRESIDING JUDGE
DALLAS COUNTY,
PROBATE COURT #3

App. 7
APPROVED AS TO FORM:
WOOLLEY <> WILSON, LLP
By: /s/ Byron L. Woolley_________
Byron L. Woolley
State Bar No.: 21986500
6440 N. Central Expwy.
Suite 505
Dallas, Texas 75206
Telephone: (214) 871-5082
Facsimile: (214) 871-5090
E-mail: woollev@woolleywilson.com
Attorney for Matthew Glenn Shubert

App. 8
PR-18-04004-3
THE ESTATE OF
§ IN PROBATE COURT
GLENNA GENTHNER § NO. 3 OF
SHUBERT
§ DALLAS COUNTY,
DECEASED

§ TEXAS

ORDER TO PAY ATTORNEY AD LITEM
On this day, the Court heard the sworn Application to
Determine Heirship of Glenna Genthner Shubert, De­
ceased.
The Court found and ordered Gregory W Sampson, At­
torney Ad Litem appointed to represent the interest of
the unknown heirs should be allowed a total fee of
$400.00 .
It is ORDERED that Gregory W Sampson, the Attor­
ney Ad Litem shall be paid $400.00 on deposit with the
Dallas County Clerk with the remainder of such fee to
be paid from the assets of the Decedent’s Estate and is
hereby discharged of her [his] services.
SIGNED this 8th

day of July. 2019.
/s/ [Illegible]
JUDGE MARGARET
JONES JOHNSON
PRESIDING JUDGE

App. 9
ASSOCIATE JUDGE,
IN AND FOR THE
PROBATE COURTS,
DALLAS COUNTY,
TEXAS
Mail Check to:
Gregory W Sampson
Gray & Reed
1601 Elm St, Suite 4600
Dallas__ , Tx 75201
/s/ Margaret Jones-Johnson
MARGARET JONES-JOHNSON
PRESIDING JUDGE
DALLAS COUNTY,
PROBATE COURT #3

App. 10
DALLAS COUNTY JOB DESCRIPTION
(April 2019)
JOB TITLE: Full-Time Associate Judge
Reports To: Presiding Judge,
Probate Court No. 3

Position No. 8270

Department: Probate Courts
Summary of Functions: Conducts hearings, jury
trial proceedings, status conferences, and special set­
tings for Probate Court No. 3 court cases, as well as for
Mental Illness Court. Works closely with the staff for
Probate Court No. 3 and Mental Illness Court staff re­
garding case settings and scheduling of pending cases.
Performs case evaluations, preparation, and manage­
ment of cases as delegated. “Make recommendations
for case resolutions to be approved bv the Presiding
Judge.” The work performed by the Associate Judge
will be with direction and guidance from the Probate
Court No. 3 presiding judge, as needed.
Management Scope: Trains and delegates re­
search tasks, projects, and other assignments to law
clerks and legal interns, as needed.
Duties and Responsibilities:
Responsible for all administrative functions of the As­
sociate Judge’s office including supervising interns,
and training future administrative support staff; pre­
paring or overseeing preparation of the budget allo­
cated for the Associate Judge, attends management
meetings, attends conferences for CLE requirements,
provides input on policies and procedures.

App. 11
Consults and confers with Probate Court No. 3 staff
and Mental Illness Staff in order to resolve docketing
matters or emergency scheduling needs.
Evaluates assigned cases or lawsuits by: reviewing
documentation, conducting legal research on applica­
ble laws, and determining most appropriate action(s)
to be taken. Responds to necessary motions, briefs or
other legal documents for trials and/or hearings.
Trains and assists in the training of legal interns, and
performs other duties as assigned.

Minimum Qualifications:
Mental Illness Court Required Qualifications
and Experience: JD licensed in the State of Texas
in Good Standing, with a minimum of 5-7 years defend­
ing or prosecuting patients in Competency, Commit­
ment, and Forced Medication Cases. A thorough
understanding of the Texas Health and Safety Code,
Diagnostic SM and the classes of psychoactive medica­
tions and the associated side effects. Have a working
knowledge of the psychiatric hospitals, ability to man­
age travel to and from all hospitals to conduct hearings
at the facilities. Knowledgeable of the statutory time
constraints for emergency detention, evaluations upon
admission for psychiatric or medical treatment,
knowledge of the requirements of a qualifying expert
for an involuntary commitment. The ability to work
well with others, including court staff, attorneys, hos­
pitals, and hospital staff.

App. 12
Probate Court Required Experience: JD li­
censed in the State of Texas in Good Standing, with a
minimum of 5-7 years defending or prosecuting Guard­
ianships, Contested Guardianships, Testate and Intes­
tate Administration and Trusts, involving extensive
experience in motion practice in litigation, inclusive of
Jury Trials. Thorough understanding of the Texas
Rules of Civil Procedure and Rules of Evidence, and
knowledge of ethical qualifications and disqualifica­
tions of fiduciaries.

